                   UNITED STATES DEPARTMENT OF EDUCATION
                        OFFICE OF INSPECTOR GENERAL
                             32 OLD SLIP, 26th FLOOR
                               FINANCIAL SQUARE
                           NEW YORK, NEW YORK 10005
                                     PHONE (646) 428-3860        FAX (646) 428-3868


                                                   April 11, 2006

                                                                                               Control Number
                                                                                               ED-OIG/A02-F0005

Dr. Betty J. Sternberg
Commissioner
State Department of Education
165 Capital Avenue
Hartford, CT 06106

Dear Commissioner Sternberg:

This Final Audit Report, entitled New Haven School District’s Administration of Title I,
Part A Summer and After School Programs, presents the results of our audit. The
objective of the audit was to determine whether the New Haven Public Schools (New
Haven) properly administered summer and after school programs funded with
Elementary and Secondary Education Act (ESEA), Title I, Part A (Title I) funds, in
accordance with Federal laws and regulations. Our review covered the period July 1,
2001, through June 30, 2004.

In its comments to the draft report, the State of Connecticut Department of Education
(State) strongly requested our reconsideration of the audit finding and recommendations.
The State enclosed a detailed response prepared by New Haven school officials. The
State did not concur with the finding and all four of the recommendations. Because of
the voluminous number of attachments included in the State’s comments to the draft
report, we have not included them in this report. Copies of the attachments are available
on request. We summarized the State’s comments at the end of the finding and included
them as Attachment B to the report.



                                              BACKGROUND


The Title I program is authorized under ESEA, as amended by the Improving America’s
Schools Act of 1994, Public Law 103-382, and the No Child Left Behind Act of 2001,
Public Law 107-110. Title I is the largest elementary and secondary education program,
which supplements State and local funding for low-achieving children, especially in high-
poverty schools. Part A of Title I provides financial assistance through State Education

       Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
New Haven School District’s Administration                                                  Final Report
of Title I, Part A Summer and After School Programs                                   ED-OIG/A02-F0005

Agencies to local educational agencies (LEAs) to ensure that all children have a fair,
equal, and significant opportunity to obtain a high-quality education and reach, at a
minimum, proficiency on challenging State academic achievement standards and State
academic assessments. Title I funds may be used by LEAs for schoolwide or for targeted
assistance programs. Under a schoolwide program, an LEA may consolidate and use
Title I funds with other Federal, State, and local funds in order to upgrade the entire
educational program of a school if not less than 40 percent of the children enrolled in the
school are from low-income families. All of New Haven’s eligible Title I schools
operated schoolwide programs during our audit period.

New Haven is a school district serving 20,694 students in 49 schools. Approximately 67
percent of New Haven’s students qualified as economically disadvantaged. New Haven
received Title I funding from the State totaling $11.50 million for the grant period July 1,
2001, through June 30, 2003, $14.70 million for the grant period July 1, 2002 through,
June 30,2004, and $14.56 million for the grant period July 1, 2003 through, June 30,
2005. The approved grant applications for these periods stated that a portion of the Title
I funds were to be used for eligible summer and after school programs. 1

New Haven operated summer and after school programs during the July 1, 2001, through
June 30, 2004 period. For this period, New Haven’s Title I summer program
expenditures totaled $3.78 million, and its after school program totaled $1.03 million.2
The following table provides the summer and after school program expenditures by
school year (000s omitted).


         Table 1−Summer and After School Program Expenditures by School Year

      Program               2001 - 2002          2002 - 2003          2003 - 2004           Totals
      Summer                  $1,185                $1,396              $1,202              $3,783
      After School               343                   352                 334               1,029
      Totals                  $1,528                $1,748              $1,536              $4,812

Examples of the summer programs included: Grades 3 through 6 Mandatory, 3 West Rock
Hot Shot Basketball Camp, Superintendent’s Executive CMT 4 Camp (SECSC), and the
Summer Tutorial and Enrichment program.
1
  The State’s 2003-2004 Priority School District Consolidated Application for State and Federal Grants,
Section 3, Title I Ranking Schools and Allocating Funds, states that school districts may choose to reserve
funds for other authorized activities such as summer school. Such reservation would reduce funds
available for distribution to schools.
2
  New Haven’s internal summer programs budget was $1.03 million for 2001-2002, $1.09 million for 2002-
2003, and $1.40 million for 2003-2004, for a total of $3.52 million for the three school years. For the
balance of expenditures, New Haven used Title I carryover funds from prior years to pay for its summer
programs.
3
  Mandatory programs were for students who failed to meet the state standards on the Connecticut Mastery
Test (CMT) and were at risk of not making the next grade.
4
  The CMT provides an accurate assessment of how well students statewide are reaching the standards of
achievement that have been established by the State Board of Education in reading, writing, and
mathematics.

                                                    2
New Haven School District’s Administration                                      Final Report
of Title I, Part A Summer and After School Programs                       ED-OIG/A02-F0005

According to the State, the after school program provided a bridge between formal
learning in school and informal learning in community -based organizations. Program
curriculums and activities provided opportunities for stimulating curiosity and instilling
the love of learning to lay the foundation for future successful learning in school and in
life.




                                      AUDIT RESULTS


New Haven generally accounted for and used Title I funds for its after school programs
in accordance with applicable laws and regulations. For summer programs, we found
that New Haven did not properly administer the $3.78 million of Title I funds it
expended, in accordance with Federal laws and regulations.

FINDING – The New Haven School District did not properly administer
          $3.78 Million in Title I summer program funds

New Haven improperly expended $3.78 million in Title I funds on ineligible summer
programs. Our review of the summer programs disclosed that New Haven supplanted
funds from non-Federal sources. In addition, 15 of New Haven’s 21 summer programs
either did not include documentation to support challenging academic instruction, were
held in ineligible schools, or lacked proper documentation. (See Attachment A for
ineligible summer programs). The City of New Haven’s accounting system, the official
accounting system for New Haven, identified expenditures in the aggregate and could not
identify individual expenditures for its 21 summer programs. Accordingly, we
questioned the entire $3.78 million in Title I summer programs expenditures during the
July 1, 2001, through June 30, 2004, period.

Supplanted Funds from Non-Federal Sources

New Haven expended Title I funds to supplant, rather than supplement, State funds for
the Grades 3 through 6 Mandatory summer program and the Summer Studies program.
Although New Haven’s accounting system did not break out expenditures for each
summer program, New Haven budgeted $1.58 million for the Grades 3 through 6
Mandatory summer program and $198,817 for the Summer Studies program, for a total
of $1.78 million. The Summer Studies program was for salaries of the Grades 3 through
6 Mandatory program paraprofessionals. The Director of Instruction for the summer
programs stated that the Grades 3 through 6 Mandatory summer program was a State-
required program. This program was for children who were at risk of failing and had to
attend summer school. If the students failed to attend summer school, the New Haven
Board of Education would not promote the student to the next grade. Since New Haven
was a priority school district, as defined by the State, and Grades 3 through 6 Mandatory
summer program was a State-required program, State funding should have been used


                                                  3
New Haven School District’s Administration                                       Final Report
of Title I, Part A Summer and After School Programs                        ED-OIG/A02-F0005

instead of Federal funds. As a result we are questioning the total amount of $1.78
million.

Section 1120A(b)(1) of the ESEA requires a State educational agency or local education
agency to use Title I funds received to supplement and not supplant the funds that would,
in the absence of such Federal funds, be made available from non-Federal sources for the
education of pupils participating in programs assisted under Title I.

Connecticut Statute, Title 10, Chapter 172, (2005), has provisions for priority school
districts to fund summer programs for poor performing students. Section 10-265l,
provides requirements for additional instruction for poor performing students in priority
school districts:

        Each local and regional board of education for priority school district . . .
        shall, within available appropriations, require the schools under its
        jurisdiction to provide additional instruction, unless the school principal
        determines that such instruction is not necessary based on the
        recommendations of the student’s teacher, (1) for the 2000–2001 school
        year, and each school year thereafter, to each student who fails to meet the
        state-wide standard for remedial assistance on the reading component of
        the fourth grade mastery examination . . . [,] on the sixth grade mastery
        examination . . . . The instruction shall be designed to address the
        student’s deficiencies and may include tutoring, an after school or school
        vacation program, or a weekend school program . . . .

No Documentation to Support Challenging Academic Instruction

We noted that 3 of the 21 summer programs had no documentation to support challenging
academic instruction. According to the Director of the West Rock Hot Shot Basketball
Camp, the academic portion of the basketball camp was geared toward the CMT. A
review of the application submitted to the Director of Instruction, disclosed that the West
Rock Hot Shot Basketball Camp was a free four-week camp open to all students.
According to the application, the daily six and one-half hour schedule for academics
included only 30 minutes for time-out reading and a computer literacy program during
the camp’s lunch period. The remaining time was spent on basketball games, drill
sessions, and a camp competition. We concluded that the West Rock Hot Shot
Basketball Camp documentation did not meet the academic content requirements of the
ESEA.

According to the ESEA, § 1111(b)(1)(A), “Each State plan shall demonstrate that the
State has adopted challenging academic content standards and challenging student
academic achievement standards that will be used by the State, its local educational
agencies, and its schools to carry out this part . . . .”




                                                  4
New Haven School District’s Administration                                       Final Report
of Title I, Part A Summer and After School Programs                        ED-OIG/A02-F0005

Section, 1114(b)(1) of the ESEA states—

        A schoolwide program shall . . . (ii) use effective methods and
        instructional strategies that are based on scientifically based research that
        (I) strengthen the core academic program in the school; (II) increase the
        amount and quality of learning time, such as providing an extended school
        year and before- and after-school and summer programs and opportunities,
        and help provide an enriched and accelerated curriculum; and (III) include
        strategies for meeting the educational needs of historically underserved
        populations; [and] . . . include strategies to address the needs of all
        children in the school, but particularly the needs of low-achieving children
        and those at risk of not meeting the State student academic achievement
        standards who are members of the target population of any program that is
        included in the schoolwide program.

Ineligible Schools

New Haven held five of its summer programs at ineligible schools. According to the
documents provided by the Director of the Superintendent’s Executive CMT Summer
Camp, 9 of the 31 schools participating in this summer program were not eligible to
receive Title I funding.

Section 1113 of the ESEA, Part (1) states, “A local education agency shall use funds
received under this part only in eligible school attendance areas.” Part (2)(A) states,
“the term ‘school attendance area’ means, in relation to a particular school, the
geographical area in which the children who normally served by that school reside.”

Lack of Proper Documentation

New Haven officials were unable to provide proper documentation for 11 of 21 summer
programs during our audit period. For example, the summer Tutorial and Enrichment
program had no documentation to determine if it was eligible for Title I funding. The
Superintendent of Schools stated that he had no documentation for this summer program.
He could not provide attendance records, academic curricula, and test results.

According to 34 C.F.R. § 76.731, “A . . . subgrantee shall keep records to show its
compliance with program requirements.”

Connecticut Statute, Title 10, Chapter 172 (2005), has provisions for priority school
districts to fund summer programs for poor performing students. According to Title 10,
Chapter 172, § 10-265m, the State requires each local and regional board of education for
a priority school district to submit a plan for the expenditure of grant funds for summer
school programs. This plan shall include, criteria for student participation in the
program, criteria for teacher selection that emphasize the skills needed for teaching the
summer program, and criteria for establishment of the curriculum for the summer
program.


                                                  5
New Haven School District’s Administration                                               Final Report
of Title I, Part A Summer and After School Programs                                ED-OIG/A02-F0005

New Haven officials addressed the after school and summer programs in their Priority
School District Consolidated Application. However, they could not provide the
documentation required by the State to determine if the 11 programs were eligible for
Federal or State funding.

The problems with the summer programs occurred because New Haven officials did not
properly monitor Title I expenditures. They also lacked an understanding in identifying
summer programs eligible to be funded with Title I funds. As a result, New Haven
improperly expended $3.78 million 5 of Title I funds to pay for ineligible summer
programs during the July 1, 2001, through June 30, 2004 period.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education,
instruct the Connecticut Department of Education to:

1.1     Assure that New Haven’s accounting system identifies all expenditures associated
        with each Title I summer program.

1.2     Require New Haven to identify and return Title I funds that it used to supplant
        State funding for the Grades 3 through 6 Mandatory program.

1.3     Require New Haven to identify Title I expenditures associated with ineligible
        summer programs and return those funds to the U.S. Department of Education, or
        return the entire $3.78 million of Title I funds used to pay for summer programs.

1.4     Properly monitor New Haven’s Title I expenditures to assure that the summer
        programs are eligible for Title I funds and that expenditures are properly
        documented in accordance with Federal and State laws.

State Comments:

The State disagreed with the finding and all four of the recommendations. The State
contended that the audit methodology was seriously flawed and that the auditors failed to
review the voluminous documentation and accounting records supporting the summer
programs at issue. The State claimed that the draft report erroneously relied on budgeted
figures rather than actual expenditures. The State commented that the draft report failed
to take schoolwide flexibility into account and that each of the four rationales used to
support the finding were inaccurate. Specifically, the State claimed that the audit
incorrectly applied or misinterpreted: (1) summer program documentation requirements,


5
 The City of New Haven's accounting system, the official accounting system for New Haven, identified
expenditures of $3.78 million made to the summer programs as a whole, but could not identify
expenditures for each specific summer program activity. Therefore, we used New Haven's budgeted
amount of $3.25 million for each activity in Attachment A.


                                                  6
New Haven School District’s Administration                                       Final Report
of Title I, Part A Summer and After School Programs                        ED-OIG/A02-F0005

(2) the “supplement not supplant provision” of NCLB, (3) the “lacking challenging
academic instruction,” and (4) the Title I eligibility of summer program sites.

OIG Response

We considered the State’s response to the finding, but our position remains the same.
The State did not provide sufficient and relevant documentation to support its position
that the audit methodology was flawed. In fact, the State’s comments and voluminous
attachments had no relevance to the audit methodology and did not address the finding
within the scope of the audit.

The State had concerns with the audit methodology, including the failure to consider and
review the abundance of available documentation that New Haven officials had provided.
However, the documentation that New Haven provided during the audit did not
adequately or fully support the Title I program requirements. New Haven did not provide
any documentation to support program compliance for 10 of 21 summer programs listed
in Attachment A. The documentation for an eleventh program was inadequate because it
did not address the program during the period audited.

The State contended that the audit did not consider the extensive official school district
records of summer program expenditures maintained by New Haven, which carefully
identified expenditures on a program-by-program basis. However, our review of all
summer program transactions provided by the City of New Haven and New Haven
disclosed that New Haven was unable to determine expenditures on a program-by-
program basis although we requested this information. For example, New Haven’s Title
I Programs Statement of Expenditure Report for School Year 2001-2002 listed
expenditures by program. But, this report listed the summer program expenditures in
totals only by object code, i.e. other personnel, equipment, and field trips. Despite our
requests for expenditures by summer program activity, neither New Haven nor the State
provided it.

An example of inadequate documentation concerned the Latino Youth program. During
the audit, the New Haven Superintendent stated that the Latino Youth program was on
the verge of financial collapse and that he provided it Title I funding to keep this program
operating. He also stated that he had no documentation for this program. In the State’s
response, the State provided an example of financial documentation for the Latino Youth
program. This documentation consisted of a vendor’s invoice for $10,000 for 70 students
served, the City of New Haven’s payment, and an agreement between the New Haven
Board of Education and Latino Youth Development. However, this documentation
lacked specific pertinent details regarding the eligibility of the students, a listing of the
students attending the schools, and the scope of services provided.

Another example of inadequate documentation concerned the Superintendent’s CMT
Camp. In response to questions regarding school eligibility, the director of the program
provided a list of students that attended this camp. This list included the student name,
grade level, teacher name, activity, and school name. However, the school name was not


                                                  7
New Haven School District’s Administration                                     Final Report
of Title I, Part A Summer and After School Programs                      ED-OIG/A02-F0005

the school the student attended, but the summer program itself. By not listing the school,
there was no way to determine if the students attended an eligible Title I school. The
State’s response did not provide any documentation for this example cited in the report.

The State’s response states that “ . . . the Draft erroneously relies on the amounts
budgeted rather than the actual expenditures spent on the summer programs at issue.”
However, New Haven did not provide documentation of actual Title I expenditures by
program activity as requested during the audit. In fact, the Manager of Finance
Administration stated that New Haven was not able to provide this level of detail for the
scope of our audit at the time of our audit. Our review of all transactions associated with
the summer and after school programs disclosed that it was not possible to determine
what the program funds were actually spent on. New Haven’s financial accounting
system did not report expenditures by program; it only reported summary expenditures by
account number. Since specific expenditures were not available for the summer program
activities, we were forced to use budgeted amounts to illustrate the budgeted cost of
specific summer program activities cited in the report. However, the total expenditures
of $3.78 million that we cite in our report is not a budget amount, but is the total amount
of actual expenditures for the summer program recorded in New Haven’s accounting
system.

The State claimed that the audit incorrectly applied NCLB’s “supplement not supplant”
provision in the analysis of New Haven’s summer programs funding. We agree with the
State’s comment that a portion of the Grades 3-6 Mandatory and Summer Studies
programs were funded and mandated by the State. In essence, grades 3 and 5 of these
programs were eligible for Title I funding. However, New Haven Title I funds were used
for the entire grades 3-6 Mandatory and Summer Studies programs without excluding
grades 4 and 6. The State did not provide evidence or support that New Haven actually
expended its State appropriation. Since New Haven was unable to break out the
expenditure for grades 4 and 6 from these grades 3 through 6 programs, we took
exception to the entire amounts.

The State challenged the finding on ineligible schools by stating that the audit failed to
take schoolwide flexibility into account. The State cited student enrollment as a
determining factor. However, New Haven did not provide adequate student enrollment
documentation to ensure that students attending five summer programs were eligible to
participate in Title I programs. Without this documentation, it was not possible to
determine Title I eligibility. In addition, these five summer programs were held at
schools that did not meet Title I demographics requirements based on New Haven’s Title
I ranking for schools and allocation of funds.

The State took exception to the lack of documentation to support challenging academic
instruction at 3 of 21 summer programs. The State provided new documentation for the
New Haven Hot-Shot Camp (NHHSC) and Ikennas Kitchen, two of the three programs
questioned in the report. The NHHSC documentation stated that its participants would
spend fifty percent of their time on non-fiction reading (academic instruction) and the
remaining fifty percent on basketball. During the audit, New Haven asserted that


                                                  8
New Haven School District’s Administration                                     Final Report
of Title I, Part A Summer and After School Programs                      ED-OIG/A02-F0005

NHHSC’s program showed only one of six hours on academics and the remaining five
hours on basketball. The Director stated that NHHSC was modified for school year
2004-2005 which is beyond the scope of our review. The State also submitted new
documentation for a summer program called Ikennas Kitchen. However, this
documentation was inconsistent with New Haven’s summer program application for
school year 2003-2004. This application listed daily sports activities including tennis,
nature walks, biking, and golf. It is our position that these two programs clearly lacked
the necessary documentation to support challenging academic instruction.




                                    OTHER MATTERS


The City of New Haven issued duplicate payroll checks. We reviewed 413 payroll
checks for personnel working at New Haven’s summer basketball programs during the
July 1, 2001, through June 30, 2004 period and found 54 (13 percent), had duplicate
check numbers. This occurred because the City of New Haven’s accounting system
lacked an internal control to prevent the issuance of payroll checks with duplicate check
numbers. Specifically, the same check numbers were issued for both electronic direct
deposits and manually prepared checks. Consequently, the potential misuse of funds
exists since duplicate check numbers are difficult to properly reconcile. Although we
found no monetary loss, we brought this matter to the attention of the Supervisor for
Payroll and Pensions for the City of New Haven.




                OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of the audit was to determine whether New Haven properly administered
summer and after school programs funded Title I funds, in accordance with Federal laws
and regulations for the July 1, 2001, through June 30, 2004 period.

To achieve the audit objective, we evaluated the procedures and practices used by the
New Haven Board of Education to oversee summer and after school programs. We also
reviewed data obtained from the City of New Haven’s financial system and the Board of
Education’s Business Office. We interviewed officials from the offices of the
Superintendent, Business Manager, Summer Program Coordinators, and Summer
Program Directors. We also interviewed State Department of Education officials
responsible for the oversight of New Haven. We examined OMB Circular A-133 Single
Audit Reports for the years ended June 30, 2001, through June 30, 2004, and reviewed
the work performed by the independent public accountant who prepared the Single Audit
Reports.


                                                  9
New Haven School District’s Administration                                      Final Report
of Title I, Part A Summer and After School Programs                       ED-OIG/A02-F0005

To test New Haven’s summer and after school program expenditures, we judgmentally
selected 52 of 234 vendor transactions totaling $371,794, of $455,066 for the July 1,
2001, through June 30, 2004 period. This represented 82 percent of the total costs
associated with these programs. We verified that all 413 checks paid to personnel
associated with New Haven’s two summer basketball programs had been endorsed by the
payee. To determine the validity of other program payroll payments, we randomly
selected 20 of 303 transactions associated with the after school program and 25 of 5,423
summer program transactions.

To ensure the accuracy and completeness of the data, we compared New Haven’s
detailed Title I after school and summer program expenditures for the July 1, 2001,
through June 30, 2004 period, to expenditures reported to the State for this period. These
records were in agreement.

We conducted fieldwork at the Board of Education offices in New Haven and at the State
Department of Education, from December 8, 2004, through September 13, 2005.

We conducted the audit in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above.




                           ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on
this audit:

                                  Dr. Henry L. Johnson
                                  Assistant Secretary
                                  Office of Elementary and Secondary Education
                                  U.S. Department of Education
                                  FB6, Room 3W315
                                  400 Maryland Avenue, SW
                                  Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be appreciated.

                                                 10
New Haven School District’s Administration                                            Final Report
of Title I, Part A Summer and After School Programs                             ED-OIG/A02-F0005


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.

                                                      Sincerely,

                                                      /s/
                                                      Daniel P. Schultz
                                                      Regional Inspector General for Audit

Attachment(s)




                                                 11
New Haven School District’s Administration                                                            Final Report
of Title I, Part A Summer and After School Programs                                             ED-OIG/A02-F0005

                                              Attachment A
                                  Ineligible Title I Summer Programs
Ineligible           No                   Ineligible    Supplanted       Lack                 Notes    Total
summer               Documentation        Schools       Funds            of Proper                     Budgeted
Programs             to support                         from Non-        Documentation                 Costs-
                     Challenging                        Federal                                        2001 Thru
                     Academic                           Sources                                        2004
                     Instruction
CT Shoot Out
Basketball                                     X                                 X             3,4       $124,752
Grades 3-6
Mandatory                                                      X                                2      $1,580,981
Grades K-5
Science/Reading
Acdmy                                          X                                                3        $857,570
Early Child-
hood Mentoring                                                                   X              4           $3,811
Farnam
House                                                                            X              4          $10,000
Ikennas Kitchen              X                                                   X             1,4         $45,979
Latino
Youth                                                                            X              4          $19,292
Neighborhood
Place                                          X                                 X             3,4         $25,000
Solar Youth
Steward
Program                                                                          X              4         $15,000
Summer Studies                                                 X                 X             2,4       $198,817
Summer Tuto-
rial &
Enrichment                                                                       X              4          $27,000
Superintendent
Exce. CMT
Camp                                           X                                                3        $212,451
West Rock Hot
Shots                        X                                                                  1        $107,137
Varick Teen
Life                                           X                                 X             3,4         $21,383
Summer Band
Camp                         X                                                   X             1,4         $3,876
Total                                                                                                  $3,253,049

Notes:

1. Little academic instruction was provided.

2. This is a State-funded program for grades four and six. Supplanting is the use of funds received from non-Federal
sources for the education of pupils participating in programs assisted under Title I.

3. These summer programs were held at ineligible schools to receive Title I funds.

4. The New Haven Superintendent had inadequate supporting documentation for the Title I eligibility of these
programs.




                                                          12
New Haven School District’s Administration                                     Final Report
of Title I, Part A Summer and After School Programs                      ED-OIG/A02-F0005

                                         Attachment B
                                        Auditee Response



February 27, 2006

Mr. Daniel P. Schultz
Regional Inspector General for Audit
Office of Inspector General
U.S. Department of Education
32 Old Slip, 26th Floor
Financial Square
New York, NY 10005

RE: Office of Inspector General Draft Audit Report—
    Audit Control Number ED-OIG/A05-B0004

Dear Mr. Schultz:

Thank you for the opportunity to comment on the above referenced draft audit report.
Because the subject of that report dealt with the operation of specific New Haven Board
of Education educational programs, we sought the assistance of their administrative staff
in responding to your proposed findings. I am enclosing a detailed response which was
forwarded to us by New Haven school officials.

Our review of their response finds compelling assertions involving the failure to review
all available documentation, erroneous reliance upon budgeted rather than actual
expenditures, school-wide flexibility, eligibility of summer program sites and supplement
versus supplant. For the record, the argument put forth by New Haven on the issue of
supplement versus supplant is consistent with our interpretation of state law on the use of
state funds for summer programs. Additionally, specific information about the
educational merit of various programs should satisfy your concerns as to their educational
content and eligibility for federal funding.

We are deeply concerned about the educational impact of any financial disallowance that
might result from the recommendations in your final audit report. After discussion and
review, our sense is that the New Haven Board of Education is in substantial compliance
with the Title 1 requirements and the audit does not show any harm to any identifiable
federal interest. It would indeed be a regrettable situation if New Haven schoolchildren
were denied federal funding for these important programs.




                                                 13
New Haven School District’s Administration                                            Final Report
of Title I, Part A Summer and After School Programs                             ED-OIG/A02-F0005

We strongly request your reconsideration of the audit findings and recommendations.

If you would like to discuss these matters or if we can be of further assistance, please feel
free to contact me.
                                              Sincerely,

                                                      /s/
                                                      Mark. A. Stapleton, Director
                                                      Division of Legal and Governmental Affairs


cc: Betty J. Sternberg, Commissioner
    Brian Mahoney, CFO
    Raymond Inzero, Chief of Internal Audit

Enclosure




                                                 14
New Haven School District’s Administration                                                   Final Report
of Title I, Part A Summer and After School Programs                                    ED-OIG/A02-F0005




                                New Haven Public Schools
                   Response to Draft Audit Report: ED-OIG/A02-F0005

                                          Submitted to:
                                        Daniel P. Schultz
                               Regional Inspector General for Audit
                                  U.S. Department of Education
                                   Office of Inspector General
                                     32 Old Slip, 26th Floor
                                         Financial Square
                                     New York, NY 10005




       The Draft Audit Report ED-OIG/A02 F0005 (“Draft”), issued January 30, 2006,
erroneously concludes that the New Haven School District (properly, the New Haven
Public Schools, “NHPS”) did not properly administer funds expended for summer
programs over the 2001-2002, 2002-2003, and 2003-2004 fiscal years. 1 Additionally, the
Draft makes four recommendations in response to this erroneous finding. By this
response, NHPS respectfully requests that the finding and recommendations stated in the
Draft be reconsidered and that the recommendations on recovery of funds be withdrawn
as unsupported

         NHPS respectfully submits that the audit methodology used was seriously flawed.
First and foremost, it appears the auditors failed to review the voluminous documentation
and accounting records supporting the summer programs at issue. Notwithstanding the
erroneous statement in the Draft that there was no documentation available, there is an
abundance—literally binders—of such documentation available. Second, the Draft
erroneously relies on the amounts budgeted rather than the actual expenditures spent on
the summer programs at issue. The correction for this flaw alone reduces the claim by
over $635,000. 2 Third, the audit, although recognizing that “All of New Haven’s eligible
Title I schools operated schoolwide programs during our audit period,” fails to take into
account any sense of schoolwide flexibility.

        Beyond these major flaws in audit methodology, which by their independent merit
seriously call into question any accuracy of the audit finding, each of the four rationales
detailed as supportive of the audit finding are seriously flawed as well. From
misunderstandings of the legal requirements of “supplement not supplant” to a
1
  Actually, the Draft states, “we found that New Haven did not properly administer the $3.78 million of
Title I funds it expended.” As will be discussed below, NHPS received $3.78 million of Title I funds for all
summer programs, budgeted $3.25 million of Title I funds for the summer programs at issue over the
period at issue, but expended only $2.62 million of Title I funds for these programs during this period.
2
  The budgeted amount the Draft relied upon for the programs at issue was $3,253,049 while the actual
amount expended on those programs over the period at issue was only $2,617,575.

                                                    15
New Haven School District’s Administration                                                Final Report
of Title I, Part A Summer and After School Programs                                 ED-OIG/A02-F0005

misconception of what constitutes an eligible site for a summer program, the Draft
consistently misapplies applicable legal principles as well as established United States
Department of Education (“ED”) policy. This response first addresses the overarching
flaws in audit methodology in this case and then addresses the inaccuracy of each of the
rationales supplied for the Draft’s finding.


I.      OVERARCHING FLAWS IN AUDIT METHODOLOGY

        There are three major overarching flaws in audit methodology. These flaws by
themselves, before even considering the errors in legal rationale behind the finding,
seriously call into question the accuracy of the finding.

        A. THE AUDITORS FAILED TO CONSIDER AN ABUNDANCE OF
           AVAILABLE DOCUMENTATION, BOTH FINANCIAL AND
           PROGRAMMATIC, REGARDING THE NHPS SUMMER
           PROGRAMS

         There is an abundance of documentation regarding the NHPS summer programs,
both programmatic and financial, that the auditors clearly failed to review. The Draft
states that the City of New Haven’s accounting system was unable to identify
expenditures for each specific summer program activity. Draft, p. 6. Although the City’s
system may only track the total funds the City issued to NHPS for its summer programs
as a whole, NHPS maintains extensive official school district records of its summer
program expenditures which carefully identify expenditures on a program by program
basis. As an example of the financial documentation available through NHPS, we are
providing financial documents relating to one of the challenged summer programs, Latino
Youth. See Attachment A. 3 In addition to the financial documentation that the Draft
fails to consider, an abundance of programmatic documentation regarding each of the
summer programs is available through NHPS as well.4 The Draft totally misquotes
district officials, including the NHPS superintendent, in regards to statements about
summer program documentation. The auditors clearly must have misunderstood what
NHPS representatives may have said regarding this issue. Again, why the auditors failed
to seek and review this documentation is unclear and calls into question the methodology
employed to conduct this audit and to draft the finding and recommendations.

       Simply correcting this flaw in audit methodology and considering NHPS’
financial expenditure documentation for its summer programs immediately drops the
finding amount from $3.78M to less than $2.62M. 5

3
  Attachment A includes financial documents relating to a contract with the service provider for this
program. Included in Attachment A are the purchase order, invoice, contract, the related general journal
voucher, budget report, and general journal entry of proof. This is the financial document NHPS maintains
for all of its summer program expenses.
4
  Programmatic documentation is discussed in more detail below in Section II.D.
5
  The Draft takes the $3.78 million figure comes from the amount the official accounting system for New
Haven disbursed to NHPS as a whole—for all summer programs, not exclusively the ones questioned in the
Draft. Draft, p. 6. The Draft cites $3.23 million as the total amount NHPS budgeted for the summer

                                                   16
New Haven School District’s Administration                                                 Final Report
of Title I, Part A Summer and After School Programs                                  ED-OIG/A02-F0005



        B. THE DRAFT ERRONEOUSLY RELIES ON BUDGETED FIGURES
           RATHER THAN ACTUAL EXPENDITURES

         A second major flaw in the methodology employed to conduct this audit is the
failure to use expended as opposed to budgeted figures in determining liability per
program. Again, we suspect that the auditors relied on city level documentation which
may only have supplied the auditors with the total funds expended to NHPS for its
summer programs. However, NHPS maintains reliable dependable official records of its
expenditures per program. Why this information was not gathered and employed in
considering the finding and recommendations is unclear and reflects a major flaw in the
audit.

         The Draft itself recognizes that expenditures are the appropriate figures to
consider in issuing a finding. For example, in addition to mistakenly criticizing NHPS
for failing to properly monitor Title I expenditures, the Draft goes on to directly explain
that the auditors used New Haven’s budgeted amounts only because they could not
identify expenditures for each specific summer program activity. Draft, fn 4, p. 6.
Again, why the auditors did not seek this information from NHPS, who had the
documentation readily available, is unclear. In simply correcting this error, the total
amounts spent on the programs at issue drops from $3,253,049 to $2,617,575. 6

        C. THE DRAFT FAILS TO TAKE SCHOOLWIDE FLEXIBILITY INTO
           ACCOUNT

        As discussed in more relevant detail below, the Draft wholly fails to take into
account the flexibility offered to schoolwide schools and their programs in disallowing
NHPS summer programs. 7 In addition to the obvious errors in assessing liability that this
failure of legal understanding creates, this highlights greater concerns of the audit
methodology as a whole. The failure to take into account such an important and highly
encouraged flexibility program in conducting an audit of a district where even the Draft
recognizes all Title I schools operated schoolwide programs is highly suspect.

       In light of the recent Final Audit Report titled The U.S. Department of
Education’s Activities Relating to Consolidating Funds in Schoolwide Programs


programs that the Draft challenges. As discussed in further detail below, the proper numbers to consider
are expenditures, not budgeted dollars. Thus, once all financial documentation alone is considered, the
figure drops from $3.78 million to $2,617,575, the amount NHPS actually spent on the questioned
programs.
6
  Attachment B charts the expended amounts next to the budgeted costs as outlined on page 10 of the Draft.
The expended amounts listed therein come from Attachment C, a chart which lists expended amounts for
all NHPS summer programs during FY 2002, 2003, and 2004. This chart includes all summer programs,
not just the ones questioned in the Draft. One additional note, considering expended as opposed to
budgeted figures takes at least one program out of the discussion and finding completely. Specifically,
although NHPS budgeted $3,876 for Summer Band Camp, in the end, NHPS did not spend one penny of
federal funds on this summer program.
7
  This issue as it specifically applies to the finding is detailed in Section II. B. 3.

                                                   17
New Haven School District’s Administration                                                Final Report
of Title I, Part A Summer and After School Programs                                 ED-OIG/A02-F0005

Provisions, it is especially surprising that the Draft seems to disregard schoolwide
flexibility. Final Audit Report ED-OIG/A07F0014, issued Dec. 29, 2005. Therein, one
finding criticized ED for not encouraging schools and LEAs to exercise the schoolwide
flexibility available to them. Ironically, here we have an LEA that was exercising this
flexibility, yet, beyond failing to encourage the practice, the Draft appears to wholly fail
to take this flexibility into account.


II.     EACH OF THE FOUR RATIONALES SUPPLIED TO SUPPORT THE
        DRAFT’S FINDING ARE INACCURATE AND MUST BE REJECTED

        As stated above, in addition to the major flaws in audit methodology which
invalidate the finding, all four of the rationales stated in support of the finding are
severely flawed as well. The response now proceeds to explain the fatal errors to each of
the four stated rationales for the finding in the order they were addressed in the Draft:
(A) the Supplement not Supplant Requirement; (B) the Federal Challenge of Summer
Program Curriculum; (C) the Eligibility of Summer Program Sites; and, (D) Summer
Program Documentation.

        A. SUPPLEMENT NOT SUPPLANT

        The Draft incorrectly applies NCLB’s “supplement not supplant” provision in its
analysis of New Haven’s funding of its summer programs. The Draft mistakenly reasons
that any use of ESEA funds expended on a local summer program that is required by a
State automatically constitutes a supplanting violation. This is absolutely incorrect. The
Draft misapplied both the law and the facts in using this rationale to reach its finding.

        The summer programs at issue under this rationale are the Grades 3-6 Mandatory
Summer Program (“Grades 3-6”) and the Summer Studies program. 8 As stated in the
Draft, the Summer Studies program was for the salaries of the Grades 3-6 program
paraprofessionals. The Draft, however, misunderstands the mandatory nature of Grades
3-6 summer program. The Draft seems to assume the exact summer program, Grades 3-
6, that NHPS ran was a wholly mandated and wholly state and locally funded “as is”
summer program. This is far from the true nature of the program.

        Only a portion of NHPS’s Grades 3-6 program is funded and mandated by the
Connecticut State Department of Education (“State”). Connecticut State law in relevant
part provides:

        Each local…board of education for a priority school district…shall, within
        available appropriations, require the schools under its jurisdiction to provide
        additional instruction…to each student who fails to meet the state-wide standard
        for remedial assistance on the reading component of the fourth grade mastery
        examination…and…to each student who fails to meet the state-wide standard for

8
 The Draft lists the budgeted amounts for these two programs as totaling $1,779,798. The amount actually
expended for these two programs was $1,501,014.

                                                  18
New Haven School District’s Administration                                               Final Report
of Title I, Part A Summer and After School Programs                                ED-OIG/A02-F0005

           remedial assistance on the sixth grade mastery examination….The instruction
           shall be designed to address the student’s deficiencies and may include tutoring,
           an after school or school vacation program, or a weekend school program that is
           funded in accordance with section 10-265m.

Connecticut Statute, Title 10, Chapter 172, Section 10-265l (emphasis added). 9 The
NHPS Grades 3-6 program goes well beyond the statutory requirement and well beyond
the funding provided.

        First, any mandate on NHPS as a priority school to provide additional instruction
applies only to students failing to meet standards for remedial assistance on the fourth
and sixth grade mastery examinations. The NHPS Program goes beyond this and
provides additional instruction to not only fourth and sixth graders but also third and fifth
graders as well. The State does not mandate summer school for this group of students
whatsoever.

        Second, and most importantly, the mandate of this law extends only to available
funding, requiring NHPS to offer additional instruction only “within available
appropriations.” Pursuant to Section 10-265m, the State appropriates grants for its
“priority schools” to offer this additional instruction as required under Section 10-265l.
Further, priority schools are to use these grants to provide this additional instruction,
which may include not only summer programs but also academic term weekend programs
such as Saturday school. Most significantly, this mandate only extends to the extent of
the state appropriation. Anything provided by New Haven beyond the appropriation is
simply not mandated by law and is therefore not supplanting.

        As a priority school, NHPS uses its entire Section 10-265m appropriation for its
Section 10-265l programs. In addition to providing these programs within its available
state appropriation, and thus fulfilling the state requirement, NHPS further supplements,
not supplants, its Grades 3-6 program with federal Title I funds. There is simply no
supplanting violation. The Draft seems to assume that NHPS was using federal funds,
instead of state funds, to run a mandatory state program. This clearly is not the case.
NHPS used its state appropriation to “within available appropriations…provide
additional instruction.” NHPS then went further than required by state law, using federal
funds to supplement the state-required and state supported program. There was no
requirement to do this and certainly no funding to do it. Accordingly, there simply is no
supplanting violation.

       While this explanation of the summer program state requirement and of NHPS’
funding of and exceeding the state requirement should suffice to demonstrate no
supplanting violation exists, two policy letters issued by the United States Department of
Education further support the position that NHPS did not violate the supplement not
supplant provision. First, in responding to an inquiry regarding “ways Title I can
supplement State- and/or locally-mandated summer school programs,” ED represented:


9
    For your reference, we have included a copy of this statute as Attachment D.

                                                      19
New Haven School District’s Administration                                                   Final Report
of Title I, Part A Summer and After School Programs                                    ED-OIG/A02-F0005

         …if the school [schoolwide program school] receives funds from State and local
         sources to conduct the mandated summer school program, the school can use Title
         I funds along with its State and local resources and other Federal education
         program funds to extend the school year for all of its students.

Policy Letter dated March 26, 1998. 10 There is no general prohibition on using federal
funds to supplement even a state-mandated summer program. Rather, ED clarified a
school may use federal education funds, including Title I dollars, to supplement state
mandated summer programs.

         A second policy letter further supports this understanding of supplement not
supplant as it applies to tying federal funds to state mandated summer programs.
Therein, ED represented that where a district provides a base level of funding for a
summer program for students at risk of failing, that district may add a layer of Title I
funding to enhance the program. Policy Letter dated August 8, 2000. 11 Just as that
district explained, NHPS also believes it “can provide much more service…if we can
enhance the summer programs resources with Title I funds.” NHPS was able to do just
that by using federal funds to supplement the summer programs, just as the district
seeking a response via that policy letter was told it was permitted to do.

       Clearly, New Haven is properly using Title I funds to supplement the summer
programs at issue and does not even approach a violation of NCLB’s “supplement not
supplant” provision. Accordingly, the finding that funds expended for the Grades 3-6
Mandatory Program and the Summer Studies Program should be removed in its entirety
from any final audit report.

         B. FEDERAL CHALLENGE OF SUMMER PROGRAM CURRICULUM

       The second rationale the Draft puts forth to suggest funds were not properly
administered criticizes three of New Haven’s summer programs for “lacking challenging
academic instruction.” 12 Not only is this assertion factually incorrect but also it involves
the Draft in impermissible reviews of curriculum decisions by an LEA and it is
inconsistent with schoolwide flexibility Not only is the federal government prohibited
from dictating curriculum to states and localities, but also schoolwide flexibility permits
consolidated funds be used to support the intents and purposes of any programs
consolidated under the entire Act. Because the summer programs support the purposes of
not only Title I but also Title IV, the use of consolidated schoolwide funds is absolutely
appropriate. 13

10
   For your reference, a copy of this policy letter is attached as Attachment E.
11
   For your reference, a copy of this policy letter is attached as Attachment F.
12
   The three programs at issue under this rationale are: Ikeanna’s Kitchen, West Rock Hot Shots, and
Summer Band Camp. As will be discussed in more detail, NHPS did not expend any Title I funds on the
Summer Band Camp for the years at issue.
13
   Even if this rationale were to be accepted in the Final Draft Report, the amount expended on these three
programs is significantly less than the budgeted figures upon which the Draft relies. Using proper audit
methodology of looking at expenditures and not budgeted amounts, the finding for these three programs
alone drops from $155,992 to $128,798.

                                                    20
New Haven School District’s Administration                                     Final Report
of Title I, Part A Summer and After School Programs                      ED-OIG/A02-F0005



    1. These Programs Include Academic Instruction

       First, the proposition that these three programs do not include challenging
academic instruction is simply incorrect and unfounded. The academic components of
each challenged program are explained below.

            a. Ikeanna’s Kitchen

        Ikeanna’s Kitchen, the nickname for Ikeanna’s Kiducation Camp, (“IK”) is a
summer program for students ages 5-13. Its program description describes IK’s
philosophy: that academic, social, and physical development should continue throughout
the year. The IK program speaks to all three of these needs. Again, as clearly stated in
its program description,

        Students are grouped flexibly according to age and appropriate levels of
        instruction. Each group is challenged with developmentally appropriate literacy
        challenges. Activities include book talks, phonetic exercises and discussions
        based on reading comprehension questions stemming from the research based
        metacognitive strategies.…Campers journal, write in response to field trips,
        compose narrative, expository and persuasive essays, write original poetry
        inspired by summer scenery, nature walks/observations and science activities…on
        a daily basis the students participate in shared reading, guided reading and read
        alouds. Activities that foster oral language, vocabulary and phonetic awareness
        are integrated throughout the day.

See Attachment G, IK Program Description. IK clearly includes challenging academic
curriculum.

        As disclosed in the summer program report and in synch with the program
description, in addition to the rigorous academic routine described above, the program
also included regularly scheduled events including outdoor activities, music, and trips to
beaches and state parks. Additionally, a daily activity included student participants
assisting in preparing the daily hot lunch, hence the nickname of the program, Ikeanna’s
Kitchen.

            b. West Rock Hot Shots

       The West Rock Hot Shots (“WRHS”) Summer Program combines a summer
basketball camp with an academically intense summer school curriculum, aptly named
the Time Out Reading Program. Students are divided into groups that rotate equally
between the basketball court and the classroom. The Mission and Purpose of the
program is as follows:

        The program is designed “to provide a safe and fun environment for students of
        the New Haven Public School System who are interested in learning the game of


                                                 21
New Haven School District’s Administration                                                Final Report
of Title I, Part A Summer and After School Programs                                 ED-OIG/A02-F0005

        basketball. Students who attend the camp are required to participate in academic
        enrichment activities that enhance reading and writing skills.”

See Attachment H, WRHS Program Description. Again, one component of the WRHS
summer program is the Time-Out Reading Program. Participants are divided into teams
of 10 and meet for 2.5 hours per day (50% of the camp day) to read non-fiction leveled
text and answer open-ended questions that are aligned with the 4th Generation
Connecticut Mastery Test. One-on-one assistance is available for participants who
require individual attention.

       Just as with Ikeanna’s Kitchen and the rest of NHPS’ summer programs, WRHS
includes challenging academic curriculum.

             c. Summer Band Camp

       NHPS budgeted funds but expended no Title I funding on Summer Band Camp
during the years at issue. As such, any finding based on the use of federal funds
expended for this program must be disregarded. 14 This reflects the problems with the
flawed audit methodology of relying on budgeted rather than actual figures.

     2. Prohibition on ED Determining Curriculum

        Finally, the US ED is explicitly prohibited from determining what constitutes
“challenging academic instruction.” 15 Both Title I and the General Education Provisions
Act (GEPA) prohibit the federal government from directing such control over a state or
local educational agency’s decisions regarding instructional content and curriculum:

        Sec. 1905. Prohibition against federal mandates, direction, or control.
                Nothing in this title shall be construed to authorize an officer or employee
        of the Federal Government to mandate, direct, or control a State, local educational
        agency, or school’s specific instructional content, academic achievement
        standards and assessments, curriculum, or program of instruction.

Title I, § 1905.

        PROHIBITION AGAINST FEDERAL CONTROL OF EDUCATION. SEC.
        438. No provision of any applicable program shall be construed to authorize any
        department, agency, officer, or employee of the United States to exercise any
        direction, supervision, or control over the curriculum, program of instruction,
        administration, or personnel of any educational institution, school, or school
        system…


14
  The Draft uses the budgeted figure of $3,876. This figure must be removed from the finding in whole.
15
  Furthermore, and perhaps more importantly, why the auditors decided to use “challenging academic
instruction” as part of its criteria is puzzling as this is not a defined requirement.


                                                   22
New Haven School District’s Administration                                    Final Report
of Title I, Part A Summer and After School Programs                     ED-OIG/A02-F0005

GEPA § 438.

    As demonstrated above, two questioned programs that NHPS funded with Title I
dollars included challenging academic instruction. For federal auditors to judge
otherwise in spite of such evidence of academic content in the programs appears to be in
direct violation of both Title I and GEPA. Accordingly, this rationale must be eliminated
as supportive of the finding.

    3. Programs Also Meet Goals of the Safe and Drug-Free Schools and
       Communities Act

        Regardless of the academic content of these programs, NHPS is authorized to
make these expenditures in a schoolwide school under schoolwide flexibility. “All of
New Haven’s eligible Title I schools operated schoolwide programs during our audit
period.” Draft, p. 1. The basic premise of “schoolwide” system under Title I is that
schools may consolidate all uses and funds from different Federal programs and are not
required to maintain separate fiscal accounting records, by program, that identify the
specific activities supported by those particular funds “as long as the school maintains
records that demonstrate that the schoolwide program, considered as a whole, addresses
the intent and purposes of each of the Federal programs that were consolidated to support
the schoolwide program.”

        New Haven’s summer programs support the purposes not only of Title I but also
of Title 4. Specifically, the purposes of the Title 4 Part A program, Safe and Drug-Free
Schools and Communities (“SDFSCA”), are served by the summer programs. The
purpose of Title 4 Part A is:

        …to support programs that prevent violence in and around schools; that prevent
        the illegal use of alcohol, tobacco, and drugs; that involve parents and
        communities; and that are coordinated with related Federal, State, school, and
        community efforts and resources to foster a safe and drug-free learning
        environment that supports student academic achievement…

§ 4002. All NHPS summer programs support this purpose. The summer programs
provide a shelter during the summer for students that is free from drugs and alcohol and
encourages academic achievement.

       The entire NHPS system shares the goals and purposes of the SDFSCA in its
mission and goals. The NHPS Social Development Department provides a
comprehensive instructional and support program designed to meet the development
needs of students and their families. According to their mission statement:

        This program strives to prevent destructive behaviors such as substance abuse,
        violence, school dropout and risky sexual activity. It promotes positive, and
        responsible attitudes and behaviors through classroom instruction, school and



                                                 23
New Haven School District’s Administration                                           Final Report
of Title I, Part A Summer and After School Programs                            ED-OIG/A02-F0005

        community activities, and collaborative planning and decision-making with
        parents, teachers, school administrators, and community leaders.

NHPS Social Development Department Mission Statement, Attachment I. The Social
Development Department recognizes the link between test scores and other factors such
as social skills, future hopes, affiliation with delinquent peers, school safety, emotional
well being, witness of violence, and friends as models for deviance. See excerpts from
power point presentation, Attachment J. Social Development Department materials also
recognize student developmental pathways to include cognitive, social, ethical,
psychological, language, and physical. See Developmental Pathways Handout,
Attachment K. The NHPS summer programs all support this mission and are a means to
serve the purposes of the SDFSCA.

       Exercising schoolwide flexibility permits NHPS schools to consolidate its federal
funding so long as it maintains records that demonstrate that its schoolwide programs
address the intent and purposes of each of the consolidated Federal programs. NHPS
summer programs address the intent and purposes of not only Title I but also Title IV
Part A. Taking schoolwide flexibility into account, NHPS clearly may use federal
education funds to support its summer programs.


        C. ELIGIBILITY OF SUMMER PROGRAM SITES

        The third rationale supplied for the finding, which regards the eligibility of
schools, is also misplaced and reflects further misunderstanding of Title I eligibility.
Under the heading “Ineligible Schools,” the Draft states, “New Haven held five of its
summer programs at ineligible schools.” 16 Draft, p. 5. The Draft references Section
1113 of the ESEA and literally but mistakenly interprets that provision to limit where
services may be provided to within the geographic bounds of a school attendance area—
specifically at Title I designated schools. Title I eligibility generally is based on the idea
of poverty level of an area and affects student populations served, not necessarily the
physical location where services are provided to those populations.

         Many practical considerations must be taken into account in providing a physical
location for summer programs, including items such as air conditioning and cost of
opening each facility. Practicality and efficiency dictate that Title I eligible programs for
Title I eligible student populations need not be provided solely at Title I designated
schools. Countless examples demonstrate this principle. Some examples include:
eligible schools not located within an eligible school attendance area, preschool services,
equitable services to private school students, supplemental educational services, and
school-inside-a-school transfer option flexibility.



16
  In total, the Draft’s finding regarding these five programs (CT Shoot Out Basketball, Grades K-5
Science/Reading Academy, Neighborhood Place, Superintendent Exec. CMT Camp, and Varick Teen Life)
totaled $ 1,241,156; but, the actual amount spent on these programs was only $ 909,167.

                                                 24
New Haven School District’s Administration                                        Final Report
of Title I, Part A Summer and After School Programs                         ED-OIG/A02-F0005

        First, Section 1113(b)(1)(B) of the ESEA permits Title I funds to be used at
certain schools that are “not in an eligible school attendance area.” The determining
factor in designating such schools is based on student enrollment, not geographic area
demographics. The Draft’s interpretation that Title I services can never be provided at
locations not physically located within an eligible school attendance area is incorrect and
in direct conflict with this provision.

        Second, ED issued guidance entitled Serving Preschool Children under Title I,
Non-Regulatory Guidance on March 4, 2004. Two questions and accompanying answers
in that guidance are especially relevant to this issue:

        D-3      Where may TI preschool services be provided?

               Preschool services may be provided at any location that other Title I
        services may be provided, including public school buildings, public libraries,
        community centers, privately owned facilities (including facilities owned by faith-
        based organizations (FBOs)), the child’s home and other appropriate settings.

        D-4      If appropriate facilities are not available to house a preschool program in
                 the district or a school, how might preschool services be provided?

                If appropriate district or school facilities are not available for preschool
        services, the district and school should consider working with children in existing
        childcare programs such as…. In any case, the setting should be of sufficient
        quality to facilitate effective program implementation.

2004 Preschool Guidance, 17. Title I services may be provided at many different
locations, not solely at Title I designated schools. Moreover, as the answer to question
D-4 highlights, making sure the setting is of sufficient quality to facilitate effective
program implementation is key.

        Similarly, summer school programs need not be physically located inside the
building of a Title I designated school. Clearly, concerns NHPS took into account, such
as air conditioning during the summer, in deciding where to host its summer programs
impact the quality of location and can impact the quality of effective program
implementation. The preschool guidance wholly supports the NHPS decision to choose
locations based on their ability to facilitate effective program implementation.

        Equitable services to children attending private school provides yet another
example that the physical location where services are provided is not the relevant
question to determining eligibility. See ESEA Section 1113(b)(2). An LEA may use the
funds reserved for private school children to: “Provide equitable services to eligible
children in each private school with the funds allocated for the children who reside in
participating public school attendance areas and who attend that private school.” Title I
Services to Eligible Private School Children, Non-Regulatory Guidance, October 17,
2003. As the statute makes clear, Title I funding for these students is determined


                                                 25
New Haven School District’s Administration                                                   Final Report
of Title I, Part A Summer and After School Programs                                    ED-OIG/A02-F0005

“without regard to whether the public school attendance area in which such children
reside” is located within an eligible school attendance area. ESEA Section 1113 (b)(2).
Students eligible to receive Title I services may receive the benefit of those services at
their private school, regardless of whether the private school is physically located within
the home school’s school attendance area—they need not be shuttled over to the physical
building of a Title I designated school in order to receive those services. Similarly, there
is no requirement that Title I funded summer programs be held in the physical building of
a Title I designated school.

        Guidance regarding supplemental educational services further supports NHPS’
position that summer programs need not be held within the physical building of a Title I
designated school. 17 Supplemental educational services (“SES”) are sometimes, but not
always, provided in the physical building of a Title I eligible school. Like the other
examples, the physical “where” the services are being provided or held is irrelevant to the
issue of eligibility.

        Finally, the school within a school transfer option also demonstrates that physical
location is not the determining factor. ED issued Public School Choice non-regulatory
guidance on February 6, 2004. Therein, ED addressed the question of what options are
available to an LEA that does not have the physical capacity to offer transfers to all
eligible students. The guidance explains that in such a situation, “school officials will
need to employ creativity and ingenuity in creating capacity to receive additional
students.” P. 15. One such creative suggestion is “creating new, distinct schools, with
separate faculty, within the physical sites of schools identified for improvement.” Id.

       If the position taken in the Draft were correct, there is no way that this school
within a school transfer option could be possible. This example from the Public School
Choice guidance further demonstrates that the physical site of a school does not define
17
     The language of the guidance supports this position:

           C-24. Some after-school programs are housed in public school buildings. May such programs be
           supplemental educational service providers if the school in which they are housed has been
           identified as needing improvement, or is in corrective action or restructuring?

           Programs that operate independently from the school and are not a part of the school’s regular
           program may become supplemental educational service providers if they meet the SEA’s criteria.
           The status of the school does not affect the eligibility of an independent entity housed in the
           school.
           …
           G-15. How may an LEA fairly select providers to work in school buildings if there is not enough
           room in the schools for all providers to run their programs on-site?

           …The Department…encourages LEAs to allow providers in the school building, either free of
           charge or for a reasonable fee….However…it may not be possible to have all providers use school
           buildings.

Supplemental Educational Services, Non-Regulatory Guidance, June 13, 2005, pp 24, 34 (emphasis added).
Similar to SES, summer programs are independent programs apart from standard academic year school
day. Summer programs, just as SES, need not be provided within the school building.

                                                      26
New Haven School District’s Administration                                                  Final Report
of Title I, Part A Summer and After School Programs                                   ED-OIG/A02-F0005

the school or a school population. If two separate schools can exist within one physical
site, clearly the address of a building is not the determinative question of whether or not
federally funded education services may be provided at that site.

        Countless other examples, such as funding for professional development, parent
involvement, and the ability to take field trips beyond the geographic bounds of a school
attendance area, contradict the Draft’s strict interpretation of where Title I services may
be provided. As all of these examples demonstrate, where the students physically receive
the benefit of Title I dollars is not the relevant question. Accordingly, this rationale must
be disregarded as supportive of the finding. 18

        D. SUMMER PROGRAM DOCUMENTATION

        The fourth and final reason stated in the Draft to support the finding, that NHPS
lacked proper documentation regarding its summer programs is also incorrect. NHPS has
binders of information regarding its summer school programs. Clearly, the auditors
clearly must not have reviewed this information. The binders include information such as
advertisement materials, attendance records, and program reports for each summer
program. Perhaps auditors failed to ask for these materials or clearly explain what
documentation they needed from NHPS staff, but the Draft’s suggestion that such proper
documentation does not exist is wholly incorrect. In light of the auditors inability to
locate existing accounting records, reliability of such statements from NHPS staff and
administrators is questionable at best.

        For example, for Ikeanna’s Kitchen, a summer program discussed in great detail
above, NHPS has an abundance of documentation regarding this program. Available
documentation regarding the Ikeanna’s Kitchen summer program includes: a 3-page
program description, seven pages of handouts and activity plans, a summer program
report, and attendance records. What more the auditors could possibly expect or ask for
beyond this is unclear. At any rate, as discussed an the beginning of this response, the
auditors’ failure to review such documentation is a major flaw in their audit methodology
and calls into question the quality and validity of the Draft Audit Report.


III.    CONCLUSION

        In closing, NHPS respectfully disagrees in whole with the finding and all four of
the recommendations issued in the Draft and requests that they be reconsidered, revised,
and that the recommendations for repayment be withdrawn before the issuance of a final
audit report. From the serious flaws in audit methodology which lead to obvious errors in
the Draft and bring question to the management of the audit as a whole to the errors and

18
  The Draft cites this rationale in its finding as it relates to five programs: CT Shoot Out Basketball,
Grades K-5 Science/Reading Academy, Neighborhood Place, Superintendent Exce. CMT Camp, and
Varick Teen Life. The total finding amount the Draft lists for these programs (the budgeted amounts) is
$1,241,156. Because this rationale should be disregarded, Connecticut urges this amount be eliminated
from the finding.

                                                    27
New Haven School District’s Administration                                      Final Report
of Title I, Part A Summer and After School Programs                       ED-OIG/A02-F0005

misunderstandings of the law reflected in the four rationales put forth to support the
finding, it is clear that the finding and recommendations should be reviewed and
withdrawn.




                                                 28
